2.0- 5764
IN THE SUPREME COURT OF THE UNITED STATES
RODNEY BERRYMAN, SR., Petitioner

V.
ROBERT K. WONG, et al., Respondent
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
REPLY BRIEF FOR PETITIONER

BRIAN R. MEANS
DEPUTY ATTORNEY GENERAL
1300 I STREET, SUITE 125
P.O. BOX 94244-2550
SACRAMENTO CA. 94244-2550
TELEPHONE: (916) 3245254

SAOR E. STETLER
P.O. BOX 2189
MILL VALLEY, CA. 94942
TELEPHONE: (415) 388-8924
RODNEY BERRYMAN SR.,
FILING PRO SE P.O. BOX
E-03500 SAN QUENTIN, CA. 94974

RECEIVED
JAN - 8 2021

i
CAPITAL CASE
QUESTIONS PRESENTED
Petitioner Rodney Berryman Sr. presents five questions as follows:

The fist question; The Court of Appeals finding there was no basis for
Interlocutory Appeal, on December 17, 2002.
The second question; Is that the Court of Appeals on May 1, 2014,
declined to entertain petitioner's pro se request for "COA" expanding.
The third question; Is that the Court of Appeals on December 18, 2018,
declined to entertain two of petitioner's pro se motion - which was the
pro se request for the panel to grant motion due to petitioner repeatedly
objected before trial to prevent trial counsel from admitting guilt
during the trial. And, Motion requesting for TOUCH-DNA on shoes to be
granted.
The fourth question; The Court of Appeals did not issue a Order to the
filed April 9, 2019, pro se motion to grant new trial under People v Eddy
And the fifth question; Is the Court of Appeals Opinion filed on
March 27, 2020, affirming the District Court's denial of habeas corpus.

ii
DIRECTLY RELATED PROCEEDINGS

Superior Court of the State of California, County of Kern:
People v. Rodney Berryman* No. 34841 (Nov. 28, 1988)
(judgment of death).
California Supreme Court:
People v. Rodney Berryman, No. S008182 (Dec. 27, 1993) (on
automatic appeal, conviction and death sentence affirmed).
In re Rodney, No. S034862 (Dec. 27, 1993) (petition
for writ of habeas corpus denied).
In re Rodney Berryman, No. S068933 (Apr. 29, 1998) (petition
for writ of habeas corpus denied).
In re Rodney Berryman, No S077805 (Apr. 21, 1999) (petition
for writ of habeas corpus denied).
Rodney Berryman v. Davis, No. S226259 (May 4, 2015)
(petition for writ of habeas corpus filed).
United States District Court for the Eastern District of California:
Rodney Berryman, v. Ayers, No. 1: 95-CV-05309-AWI (July 10,
2007) (petition for writ of habeas corpus denied).
United States Court of Appeals for the Ninth Circuit:
Rodney Berryman v. Wong, No 10-99004 (Mar. 27, 2020)
(affirming denial of habeas corpus relief).

r

Rodney Berryman v. Woodford, No. 02-80106 (Dec. 17, 2002)
(denying interlocutory appeal).
Supreme Court of the United States:
Rodney Berryman v. State of California, No. 93-7680 (Jan. 9,
1995) (certiorari denied).
Rodney Berryman, Sr. v. Chappell, Warden. No. 12-9604
(Jun. 3, 2013) (certiorari denied).

* » •
111

TABLE OF CONTENTS
STATEMENT

1

ARGUMENT

2

CONCLUSION

11

DECLARATION OF SERVICE

12

iv
TABLE OF AUTHORITIES

CASES

PAGE

Jones v. Barnes, 463 U.S. at 751-753

9

McCoy v. Louisiana, 584 U.S. (2018)

8

McCoy in People v. Eddy

9

People v. Eddy Cal. App. 5th 472

8

Strickland v. Washington, 466 U.S. 668 (1984)

5

Strickland v. Washington, 466 U.S. 668 (1984)

11

STATEMENT
Mr. Berryman was convicted and sentence to death on December 6, 1988,
for the September 6, 1987, rape and murder of Florence Hildreth. The
district appeal proceeding in the Supreme Court were completed on Dece­
mber 27, 1993, with the issuance by the State High Court of an Opinion
Affirming the conviction and sentence. Mr. Berryman's initial state
habeas petition was denied on the same day. The Federal action was comme­
nced on April 27, 1995, with a request for appointed of counsel and a
stay of execution.
The District Court appointed Charles M. Bonneau, Jr. and Jessie Morris,
Jr. On November 4, 1996, Berryman's Habeas Corpus Petition was filed. On '
January 15, 2010, the District Court denied the petition, and issued a
Certificate of Appealability on a single issue. On February 3, 2010,
counsel filed a Notice of Appeal, and on February 23, 2010, present
counsels was appointed to the case.
On February 11, 2010, the Court of Appeals issued a scheduling Order
directing Berryman to file his Opening Brief by May 12, 2010. Due to the
extensions of time requested by Mr. Stetler, and petitioner's pro se
submissions, the Opening Brief ended up being filed on December 29, 2014.
On March 27, 2020, the Court of Appeals filed their Opinion Affirming
the District Court's denial of petitioner's federal habeas corpus peti­
tion. Present counsel, then, filed on July 8, 2020, for "petition for
rehearing and rehearing en banc." Which was Denied on August 20, 2020. • •

•

The First Question; The Court of Appeals finding there was no basis for
Interlocutory Appeal, On December 17, 2002. The Second Question; Is that
the Court of Appeals on May 1, 2014, declined to entertain petitioner's
pro se request for "COA" expanding. The Third Question; Is that the Court
of Appeals on December 18,2018, declined to entertain two of petitioner's
pro se motions - which was the pro se request for the panel to grant
motion due to petitioner repeatedly objected before trial to prevent
trial counsel from admitting guilt during the trial. And, Motion request­
ing for Touch-DNA on shoes to be granted. And the Fourth Question; The
Court of Appeals did not issue a Order to the filed April 9, 2019, pro se
motion to grant new trial under People v. Eddy. And the Fifth Question;
Is the Court of Appeals Opinion filed on 3/27/2020, affirming the Distr­
ict Court's denial of habeas corpus.

1

ARGUMENT
Petitioner first would like to point out that the false evidences is a
fact in this case, which, makes the false testimonies of those false
evidences true. So how can there be a reasonable reason and established
rules for counsels to not advance the pro se claims - and the Court of
Appeals refusing to entertain the pro se claims of true false evidences?
The Court of Appeals observed Berryman would be able to raise his
claims of prejudice on appeal from the final judgment. Don't mean that
Berryman would be able to raise those those claims in pro se while being
represented by an attorney who chose not to advance the claims. (Page 8)
If petitioner isn't allowed to raise his pro se claims of false evid­
ences, then, how is petitioner to show that the District Court prejudiced
him? And how was petitioner to show the Court of Appeals that the false
evidences is true, so to, stop counsel's from admitting guilt? Petiti­
oner's appeal in the Court of Appeals haven't been fair due to the Court
issued a Order for the pro se Interlocutory Appeal after judgment, but,
refuse to allow petitioner to demonstrate that he had been prejudiced by
the District Court's refusal to file his pro se motion.
The pro se Interlocutory appeal is also a complaint against prior and
present counsels for not filing the pro se claims of false evidences, and
admitting guilt over petitioner's objection. Counsel couldn't advance the
pro se claims of false evidences after admitting guilt - Due to he would
then be throwing himself and prior counsels under the bus. So, it wasn't
reasonable for counsel not to raise Berryman's desired claims of false
evidences on appeal from the final judgment. (Page 8)
Plus, counsel is aware that the pro se claims of false evidences would
affect how the instant case is managed or decided. Pursuant to Ninth
Circuit Rule 28-2.6. The Circuit Aduisory Committee Note to 28 - 2.6.,
states;
"The purpose of this rule is to alert the parties and the Court to other
known cases pending in this Court that might affect how the instant case
is managed or decided."
Counsel didn't alert the parties and the Court of the "trial record
that shows the false evidences and false testimonies that is in fact true,,
in which, would affect how the instant case is managed or decided.

2

Petitioner believe if counsel would have alerted the parties and the
Court of Mr. Laskowski using his planted horseshoe-shaped chain link to
create his false chain link evidences in trial exhibit 76 through 80. And
that there was no fingerprint test comparison results presented to the
Court showing that Ms. Hildreth's thumb print was found in petitioner's
truck.
Also, Laskowski's false left rear tire test rolled imprint exhibit 66,
clearly shows it is not a match. See C.A. DKt. 40. at 38. And, that Mr.
Laskowski's report clearly states he did not even test roll the right
rear tire. See C.A. DKt. 40. at 39. The false evidences mention hare
above is just some of the prosecution misconduct in the pro se claims, at
DKt. 40. • • ,That could effect how the instant case is managed or decided.
Such as counsel wouldn't be able to admit guilt, and the Court of Appeals
Opinion would more then likely would have granted relief - instead of
Affirming the conviction.
The Court of Appeals erred for not expanding the certificate so petit­
ioner could show through DNA TESTING that the Brooks shoes in evidences
is not his shoes. How can the Court of Appeals allow counsel to admit
guilt on petitioner's last appeal, but deny petitioner DNA TESTING on the
planted Brooks shoes?
The strategic decision of appellate counsel not to seek Certification
of Berryman's desired claims was entirely reasonable. (Page 6) This can
not be reasonable because it gave the Attorney General an unfair advant­
age over petitioner, due to, the Attorney General did not have to respond
to the planted and false evidence. Which means counsel's strategic deci­
sion allows him to continue admitting guilt while removing the pro se
Interlocutory appeal from petitioner.
The Attorney General pointed out how the District Court agreed with
counsel, that, Berryman's claims of false evidence were implausible.
D. Ct. DKt. 462 at 3-4. It explained that:
'’Evidence of Malfeasance on the part of Kern County Law enforcement offi­
cials (including investigators for the District Attorney's Office) in'
manipulating evidence cannot be developed due to nonexitence. The Court
has studiously considered Berryman's pro se claims, as presented in his
pro se state habeas petition and reiterated in his pro se communication
received by the Court the contentions he advances simply cannot be susta­
ined. The evidence presented at Mr. Berryman's trial does not appear to
have been, in any way, planted."
3

The state record alone will show malfeasance and manipulation of the
evidences. And petitioner's pro se motion, at C.A. DKt. 40. will show
the planted and false evidence at the crime scene. The District Court
had made a mistake, and so did "independent counsel. But petitioner know
why independent counsel didn't reveal the false evidence in this case. It
was because he thought counsel was going to win relief in the District
Court with the strategy of admitting guilt*'*
The Attorney General pointed out that this Court explained, an indigent
defendant does not have a constitutional right to compel appointed
counsel to press nonfrivolous points requested by the client, if counsel,
as a matter of professional judgment, decides not to present those points
Jones v. Barnes 463 U.S. 745, 751 (1983). (Page 8,9)
Petitioner do not believe that this Court expect for counsel and the
Court of Appeal to use Jones v. Barnes to silent petitioner so he can not
object to counsel admitting guilt - and show that the planted and false
evidences is true, which, prove counsel should not have admitted guilt
over petitioner's objection. So it was an error for the Court of Appeals
to use Jones v. Barnes to allow counsel to have complete control over
petitioner's.
The Attorney General argues that the jewelry evidence was considered by
the District Court but didn't warrant inclusion in the Certificate of
Appealability. D. Ct. DKt. 462. at 13-14, 18. And that the Court expla­
ined that the jury had access to a photograph depicting the shape of the
item at the crime scene. Id. at 14. And that the presence of a gold
colored clasp at the crime scene is no less incriminating then a gold
colored horseshoe link. Id. at 18.
The trial record shows that Mr. Peterson stated to the jury that the
jury only spent fifteen minutes to reach a verdict. (RT 4021-4024) And,
that it was not physically possible for the jury to examine the numerous
exhibits and listen to a 45-minute tape. (RT 4034) And, that the trial
exhibit "34" of the crime scene round circle chain link was not a blow-up
photograph so one could see the shape clearly - So petitioner had "three"
blow-up photographs of exhibit 34, and attached it to Exhibit "AAA", in
the Pro Se Motion, At DKtBntry. 40.
Also, the jury never saw the physical crime scene round chain link
because the prosecutor and Soria stipulated that the chain link need not
be produced. (RT 2360) Why did they stipulate that?

4

The prosecutor used the false chain link evidences to place petitioner
at the crime scene with Ms. Hildreth inside petitioner's truck. That is
how important the false chain link evidences was to the prosecutor, to,
incriminate petitioner with that false evidence. The prosecutor's false
closing argument have placed Ms. Hildreth inside petitioner's truck at
the crime scene - Being drugged out of the truck while she's grabbing the
chains around the rear view mirror, taking with her, one of the chain
links on to the crime scene. (RT 3363 line 9-19)
The prosecutor stated, "thank goodness at least that one was found."
RT 3363 line 20. The problem here is that that "one crime scene chain
link is not a horseshoe-shaped link which make it physically impossible
be that it is round." It could not come from petitioner's truck. And here
the prosecutor used Mr. Soria's ineffectiveness when stated;
"The defense has had the (chain link) longer than the People have had it.
No one can come in here and say that link was likely to have come from
another chain. Its perfectly consistent, in the tool marks, physical
makeup and how it appears, its tool marks and its metallic composition
that chain link was from defendant. (RT 3363 line 22-28 & RT 3364 line 1)
Mr. Soria's ineffectiveness falls under Strickland v. Washington, 466
U.S. 668 (1984). Due to Soria did not call his expert who had examine the
chain link evidences - and Charles Morton could have clearly impeach Mr.
Laskowski's false chain link evidences in exhibit 76 through 80. And Mr.
Morton could have testified not only that he examine the chain link,
(RT 3104) But could have stated that it is physically impossible for the
crime scene round chain link to have the same tool marks with those
horseshoe-shaped chain links recovered from the truck. Due to the expert
Mr. Schliebe was called to testify and he stated, "the scene link and the
chain link from the truck - left the same tool marks." (RT 3105 1-10)
The prosecutor's false chain link evidence even had the defense expert
Schliebe believing that the crime scene chain link was a horseshoe-shaped
link. So with the defense agreeing that the crime scene link was a horse­
shoe shaped link - the jury had no choice but to believe that the false
prosecutor's closing argument was true, that, Ms. Hildreth grabbed on to
the horseshoe-shaped chain links while being drugged out of the trucks
taking with her that one chain link - this was incriminating against
petitioner who was being attacked by both side. The defense was helping
the prosecutor if they planned on doing it or not!

5

The Attorney's General's tire track evidences (pages 10-12), argues
that there is inconsistent statement about the "left and right rear tire,
but, that the inconsistency is far from enough to vacate Berryman's conv­
iction." (Page 11)
The Attorney General have overlooked the fact that Laskowskl lied under
oath when he did not exclude the "left rear tire test rolled impressions
from creating the crime scene impression in exhibit 30. Due to the fact
that the left rear tire track width is 4% inches, and the crime scene
track impression width is a big truck tire size 1\ inches wide.
Petitioner pray that this Court will view the trial photos exhibits of
Mr. Laskowski's false test rolled impressions - and the pro se arguments
under ADDITIONAL TIRE EVIDENCE, on pages 38-43, at DKtEntry. 40 • • • ,And if
the left rear tire did not create the crime scene impression in exhibit
"30" then the "spare tire impression in exhibit "38" have to be planted
evidence! See Manipulation of Crime Scene and Newly Discovered Evidence,
on "pages 19-28 and 28-38, at DKtEntry. 40 • • • •
The Attorney General know for a fact from Laskowski's test results that
the "left rear tire track on petitioner's truck, did not, create the
crime scene impression in trial exhibit 30." And that the "Right Rear
Tire" was never test rolled from Laskowski's own report. See Argument on
page 39, at DKtEntry. 40 • • • ,Petitioner believe that the conviction should
be vacated not because of inconsistencies, but for Laskowski's false
tire and chain link evidences and false trial testimonies on those false
evidences that prejudiced petitioner.
The Attorney General's argument on (pages 12-13) of the Shoe print
evidence, is focusing bnr; District Court (errors) by stating, "that the
Court determined that the claim (of the shoes being planted) was "implau­
sible" and unsubstantiated." The Court explained that Laskowski had
relied on crime scene photographs taken prior to Berryman's arrest.
The Attorney General have overlooked the fact that the jury didn't
know that there are two pairs of Brooks shoes, and that the Brooks shoes
presented to them in evidence, is not, petitioner's shoes. It was a error
for the District Court not to grant DNA TESTING, and not "grant certifi­
cate of appealability, of the states key evidence against petitioner.
See proof in photographs of the two pairs of Brooks shoes in the "Pro
Se Motion, on pages 78-84, at DKtEntry. 40...,And in the Pro Se Motion,
at DKtEntry. 162 • * * 9 Prior and present counsel erred for not having DNA
TESTING on the Brooks shoes because of their strategy of admitting guilt
was not reasonable!
6

Petitioner believe that the District Court reasons for omitting all of
petitioner's pro se claims from the certificate of appealability was
due to the fact that prior and present counsels was strongly focusing on
admitting guilt. Petitioner will argue here the proof of planted evidence
at the crime scene - Due to the Court and the Attorney General have over
looked the fact that officer
planted evidence at crime scene some
times, maybe not all times, but some times.
It must be noted that the Attorney General have "a copy of the tele­
phone recording conversation of petitioner and present counsel's invest­
igator Mr. Joseph M. Serrano. Who voluntarily told petitioner about the
crime scene misconduct by stating, "that the hands of the victim are
different in the photographs. And that there are two tires of evidences
that don't match the photographs that they have." The Attorney General
had received the telephone recording conversation in exhibits 5H and 51
with the petition from the SUPREME COURT OF CALIFORNIA, In re Rodney
Berryman on Habeas Corpus, 5226259, the Court states;
"The Court has directed me to inform you that, by letter dated August 26,
2015, the Attorney General has been informed that, upon further consider­
ation, the Court has concluded that no informal response to your petition
should be submitted at this time. The Attorney General, and you, will be
notified if and when the Court later decides that an informal response to
your above referenced petition should be submitted."
The other evidences of crime scene planted evidence can be seen in the
preliminary hearing testimony of Mr. Roper a long with the exhibits 12,
13, and 14. If one compared Roper's testimony his photographs exhibits
here with the trial exhibits and testimony - will reveal that trial
exhibit 38 the Spare Tire imprint is Planted Evidence. See Argument of
"Manipulation of Crime Scene" on page 19 through 27, at DKtEntry. 40 • • • •
Petitioner believe that counsel of record on post conviction should
have requested the District Court and the Court of Appeals - To Order the
prosecutor's office and the Attorney General's Office, to turnover, the
preliminary hearing photographs exhibits 12, 13, and 14. Due to counsels
stated that they did not have them. This request should have been made be
for counsel decided to blind-side petitioner with their strategies of
admitting guilt over petitioner repeated objection.
There are other key crime scene photographs depicting strings pointing
to evidences that present counsel stated:
"Counsel pursued those matters with the trial court clerk's office and
trial court prosecutor's office. E.g., the trial court record contains
references not supported by the trial exhibits or trial discovery: Trial
counsel and prosecutor both reference crime scene photos depicting
7

"strings** at the crime scene, ER 20, RT 27, 29, yet no such photos are
among the exhibits or in the discovery. Berryman's pro se pleading allege
this is evidence that law enforcement re-staged the crime scene without
strings as part of the undisclosed effort to convict Berryman based upon
fabrication of evidence." (See Opening Brief Foot-Note 26, on page 120,
At DKtEntry. 200.)
Petitioner believe that present counsel should know that those photos
depicting strings would not be in the trial exhibits - because Soria was
in a hearing to exclude them. So counsel should have filed a motion to
the Court of Appeals requesting that the Court Order the prosecutor's
office and trial counsels to turnover those photographs - before counsel
filed his Opening Brief on petitioner's birthday December 29, 2014, based
on "admitting guilt" over (my) objection.
It must be noted that there is a recording telephone conversation of
petitioner with counsel Tim Brosnan who agreed that Mr. Stetler have
crime scene photos with arrows pointing to evidence. That Stetler was to
send to petitioner, but, Mr. Stetler refuse to send petitioner the photos
(See Pro Se Motion With Telephone Recording, At DKtEntry. 21 • • • )
The photographs with arrows pointing to evidences and the photographs
depicting strings - Are photos petitioner strongly believe will show that
the "Spare Tire Side Wall impression exhibit 38, and the Side Shoe High
Top impression exhibit "40" is infact Planted Evidences." And there is
evidences of two crime scene from the photograph evidences that Mr. Soria
stated, "They took thirty photographs at the site where she was discov­
ered." ER 20. RT 27 line 23-26. Petitioner is able to show that there is
maybe about "54 crime scene photos - which is another crime scene."
SEE ARGUMENT OF SIX ADDED PROOF OF TWO CRIME SCENE, ON PAGES 67-74, AT
DKtEntry. 40 • • « «
THE FINAL ARGUMENT
Present and prior appeal counsels have violated petitioner's right to
autonomy under McCoy v. Louisiana, 584 U.S. ___ (2018), by admitting guilt
on this appeal over petitioner's objection. Pet. 13-15 (third question)
See C.A. DKt. 330 (motion) And trial counsel did in fact violated petit­
ioner's autonomy under McCoy v. Louisiana, 584 U.S. (2018), when conce­
ding guilt over petitioner's objection. Also trial counsel violated McCoy
as applied by the state court in People v. Eddy 33 Cal. App. 5th 472
(2019). Pet. 17-18 (fourth question presented), See C.A. DKt.348 (motion)
FOOT-NOTE
It must be noted that petitioner is unable to lookup cases cited in
the Brief in Opposition. And is unable to cite his own cases, due to,
C0VID-19 the library is CLOSED. Staff will take request but respond is
a week if able.
8

The Court of Appeals erred for allowing present counsel for allowing
presented counsel to admitting guilt over petitioner's objection. And the
Court erred for not entertaining the pro se claim that present counsel
violated (my) right to autonomy under McCoy - In which the Court could
could have STOP the violation when learned of this Court's Opinion in the
McCoy! Thus, an error by the Court of Appeals.
The Court of Appeals erred for not entertaining the pro se claim that
trial counsel violated McCoy as applied by the state court in People v.
Eddy. The Court knew present counsel's argument was that "trial counsel
should have pursued admitting guilt more vigorously over petitioner's
objection! The Court of Appeals knew that trial counsel violated McCoy
in People v. Eddy. (See Court of Appeals Opinion, page 15, FootNote 2,
At DKtEntry. 349-1.)
The Court of Appeals erred for using Jones v. Barnes, 463 U.S. at 745,
at 751-753. To allow counsels to have complete control over petitioner to
the point that petitioner is forced to be silent to live and die by
counsels strategies of admitting guilt. Petitioner believe that this
Court's Opinion in Barnes was not for allowing the lower Court to allow
present counsel to violate petitioner's constitutional Sixth Amendment to
not remain silent - So to object to counsels admitting guilt, so to be
able to have a pro se Interlocutory appeal.
The Attorney General states Berryman focuses on a remark by defense
counsel during closing argument regarding the gold color chain link;
"We're not saying what Mr. Laskowski is saying he saw is incorrect."
(RT 3408) (Brief Page 15) Petitioner believe Mr. Soria did conceded here
and when he stated, "We don't disagree that that could probably be from
the chain, but when he tries to show you his work that was a waste of
time, they're out of focus." (RT 3409) (Brief Pages 15 and 16)
Mr. Soria making the same type of remark twice is clear that he's
agreeing that the chain link evidences is true against petitioner. The
jury have no choice but to believe that Soria just conceded, just like,
his expert Schliebe who agreed that the crime scene link had the same
tool mark as one of the horseshoe shaped link. (RT 3105 line 1-10)
And, Soria conceded by not calling Charles Morton who did examine the
chain link evidence and who could have cleared up any misunderstanding
with the crime scene link and the horseshoe chain link - By impeaching
Laskowski's false chain link evidences.

9

The Attorney General argument (on page 16) that Soria's brief admitting
guilt argument was far from an admission of guilt. It must be noted that
present counsel's petition for "panel rehearing" counsel pointed out that
trial counsel "admitted guilt during his closing argument when stated:
"And if, despite what we say, Rodney was out there, there, was an explo­
sion of emotion." Id., at 294: 2-5. The victim's shoe being off indic­
ated consent, not rape. DKtEntry. 201-8, at 9." (See Petition for Panel
Rehearing, on page 14, at DKtEntry. 362.)
Petitioner believe that Mr. Soria had lead the jury to forget about his
Opening Statement that, "Berryman did not do this horrible act." In to
leaving the jury no choice but to believe guilt, when Soria stated;
"Despite what we say, Rodney was out there." Soria's alternative argument
no longer exist in the jury's mind petitioner believe once Soria stated,
"Despite what we say, Rodney was out there." Which is a Sixth Amendment
violation!
Petitioner believe that the Court of Appeals Opinion filed March 27, is
stating that present counsel's argument is that trial counsel should have
adopted admitting guilt more vigorously during the guilt phase. In which
the the panel said is a far fetched theory this is what the panel stated;
"By adopting this .far-fetched theory, Berryman's lawyers would have lost
the ability to argue the more straightforward theory that the police had
arrested the wrong person. The circumstantial evidence tying Berryman to
the scene was not insurmountable. The strongest piece of evidence was the
drop of blood on Berryman's shoe, consistent with only 1 in 1, 470 unrel­
ated African Americans. Berryman, 864 P. 2d at 49. But Berryman had a
ready reply: The blood could have come from any of Hildreth's relatives,
with whom he frequently had contact. As for the fingerprint in his truck,
his lawyers also had a response prepared. Even though Hildreth had never
ridden in his truck, she still could have left a print by leaning against
the car while talking. The straightforward innocence argument that
Berryman's lawyers pursued was not a lost cause." (See Panel's Opinion on
page 16, at DKtEntry. 349-1)
The Panel's Opinion here shows that the Court believed, that, Soria and
appeal counsels should have never admitted guilt over petitioner's objec­
tion. So why did the Court of Appeals error by allowing present counsel
to admit guilt on this appeal?

10

Here, petitioner will focus on the Court of Appeals stating; “That the
straight forward innocence argument that Berryman's lawyers pursued was
not a lost cause."
Petitioner believe it was a lost cause due to counsel argued in the
alternative, so to, take away the innocence argument when Soria stated;
"Despite what we say, Rodney was out there." And Soria did not have a
defense for the innocence argument. There was no expert testifying that
examine the evidence against petitioner which happen to be false evid.
Which, brings petitioner to the Panel's Opinion about the strongest
piece of evidence against petitioner was the "drop of blood on the shoe.
And Ms. Hildreth's thumb print inside the truck." The problem here is
that there is two pairs of Brooks shoes that the jury did not know about.
And the Brooks shoes with blood on them in evidence is not petitioner’s
shoes. DNA TESTING ON THE SHOES SHOULD BE GRANT (I) PRAY!
The fingerprint evidence was "no evidences." The prosecutor and his
fingerprint expert mislead the jury to believe that there was a compar­
ison test result of a match.
The trial record shows that the jury may have mistook one of these
trial exhibits 41, 42, 43, and 44, for Ms. Chappell's comparison test
result, which they was not, the evidences shows that in exhibits herein
below starting with:
"Trial Exhibit 44, A photograph of petitioner's truck. (RT 2417) Exhibit
43, A rolled right thumb print of Ms. Hildreth. (RT 2418) And Exhibit 42
the latent #18 that became trial Exhibit 41. (RT 2420)
Mr. Soria's ineffectiveness falls under Strickland v. Washington, 466
U.S. 668 (1984). For not having a fingerprint expert to testify that Ms.
Hildreth's thumb print was not found inside petitioner's truck. And to
have a expert to impeach Ms. Chappell's testimony.
CONCLUSION
The petition for a writ of certiorari should be granted petitioner pray.
Respectfully submitted, Rodney Berryman Sr. Dated December 31, 2020.
'/ntm

11

